March 25, 2011

DEAN J. GRANHOLM
VICE PRESIDENT, DELIVERY AND POST OFFICE OPERATIONS

SUBJECT: Management Advisory - Benchmarking Mail Distribution to Carriers
         (Report Number EN-MA-11-001)

This report presents the results of our review of mail distribution to carriers in city
delivery operations (Project Number 10XG043EN000). The objective of our review was
to identify opportunities for improving mail distribution to carriers by benchmarking with
the commercial mailing industry. This review was self-initiated and addresses strategic,
financial, and operational risks. See Appendix A for additional information about this
audit.

Recent reports by independent consultants1 and government agencies2 recognize the
financial crisis the U.S. Postal Service faces, due largely to accelerated electronic
communications and bill payment, as well as economic events. In earlier reports3 we
benchmarked Postal Service parcel processing productivity and letter processing with
commercial entities and identified best practices. In this report, we benchmarked Postal
Service delivery unit operations with FedEx and United Parcel Service (UPS), two
companies that deliver to businesses and homes throughout the U.S.

Conclusion

The Postal Service and industry carriers are similar in that individuals perform some
sorting of volumes for delivery, load their own vehicles, and assume additional delivery
points when a colleague is absent or mail volumes require it. However, the Postal
Service is unique among the companies we visited in that carriers deliver a more varied
mix of mail, including letters, flats, and parcels; and must comply with a Universal
Service Obligation.4 If the Postal Service incorporated the assignment of some delivery
unit activities to part-time employees, additional savings could be achieved.


1
  McKinsey and Company, USPS Future Business Model, March 2, 2010.
2
  Government Accountability Office (GAO)-10-624T, U.S. Postal Service: Action Needed to Facilitate Financial
Viability, April 15, 2010.
3
  Management Advisory Report – Benchmarking Postal Service Parcel Productivity (Report Number EN-MA-09-002,
dated March 31, 2009); Management Advisory Report – Benchmarking Best Practices with Presort Bureaus (Report
Number EN-MA-10-004, dated June 7, 2010).
4
  Title 39 U.S.C. 101(a) states, “The Postal Service shall have as its basic function the obligation to provide postal
services to bind the Nation together through the personal, educational, literary, and business correspondence of the
people. It shall provide prompt, reliable, and efficient services to patrons in all areas and shall render postal services
to all communities.”
Benchmarking Mail Distribution to Carriers                                                               EN-MA-11-001



Workforce Flexibilities

The Postal Service may have opportunities to improve operations by adopting some
industry best practices for distributing mail to carriers. We noted commercial delivery
businesses have staffing flexibilities, such as the ability for employees to work across
craft assignments, which allow managers to more efficiently match workhours with
workload and offset overtime by using more part-time employees. See Appendix B for
our detailed analysis of this topic

Flexible Delivery Unit Assistants5

Postal Service city delivery carriers6 have office time allowances built into their 8-hour
days to case and prepare mail for their route. Based on workload trends, vacancies,
absences, and mail volume, the carrier may perform these activities for other routes. A
small percentage of delivery units use full-time carrier craft “routers” to case and
prepare the mail for delivery exclusively; Postal Service management stated the use of
routers is declining. Routers typically case and prepare the mail prior to the assigned
carrier’s arrival; routers may or may not perform street duties later in the day, depending
on need. See Appendix B for our detailed analysis of this topic.

If the Postal Service used part-time delivery unit assistants to perform most in-office
work, these employees could absorb all carrier morning activities except loading and
driving delivery vehicles. Having part-time employees case and prepare mail within
delivery units could result in annual reduced workhour costs between $621 million and
$2.3 billion and greater flexibility for the Postal Service. Additional savings could be
generated from carrier route adjustments resulting in longer routes and less office time
for the carriers. See Appendix C for our analysis of monetary impacts.

We recommend the vice president, Delivery and Post Office Operations:

1. Pursue a delivery unit assistant initiative to have transitional employees or part-time
   flexible employees perform in-office activities including casing and preparing mail for
   carriers.




5
  Delivery unit assistants would case mail; withdraw, tray or strap out mail; obtain parcel post; and complete other
required office duties
6
  Delivery by carriers of mail addressed to residence and business addresses within the city delivery limits of the post
office.

                                                           2
Benchmarking Mail Distribution to Carriers                                       EN-MA-11-001



Management’s Comments

Management disagreed with the recommendation because of the complexity of labor
relations and existing contractual issues with the National Association of Letter Carriers
(NALC). Management further stated that the Postal Service is currently working with
NALC to examine how city delivery routes might be structured in the future. The parties
are working on a test that will attempt to separate the casing and delivery functions to
the extent possible while operating within the current work rules. See Appendix D for
management’s comments in their entirety.

Evaluation of Management’s Comments

Management stated they could not adopt our recommendation to have part-time
employees perform in-office activities including casing and preparing mail for carriers.
We recognized that current contract stipulations limit the number of part-time
employees. The intent of our recommendation was for management to separate casing
and delivery functions and pursue additional workforce flexibility. Management’s actions
include testing to separate the casing and delivery functions. Management also
indicated in a separate discussion that the Postal Service will pursue additional flexibility
in the workforce and provided a target date of May 2012 for their ongoing test to
separate the casing and delivery functions. The U.S. Postal Service Office of Inspector
General (OIG) considers management’s comments responsive to the recommendation
and actions planned by management address the intent of our recommendation.

The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Michael A. Magalski, director,
Network Optimization, or me at 703-248-2100.

     E-Signed by Robert Batta
   VERIFY authenticity with e-Sign




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                              3
Benchmarking Mail Distribution to Carriers       EN-MA-11-001




cc: Patrick R. Donahoe
    Megan Brennan
    Elizabeth A. Schaefer
    Philip F. Knoll
    Corporate Audit and Response Management




                                             4
Benchmarking Mail Distribution to Carriers                                                            EN-MA-11-001



                            APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is required by law to provide prompt, reliable, and efficient service
to, as nearly as practicable, the entire U.S. population.7 The Postal Service is further
required to maintain an efficient mail collection system. Provisions in Postal Service
appropriations mandate 6-day-a-week delivery and certain levels of rural mail delivery.8
The Postal Service establishes delivery service within this framework and manages the
associated facilities, transportation, and employee network.

The efficiency and cost of delivery operations depend on a variety of factors, including
the following:

   Mail volume and type.
   The type of carrier route.
   The number, location, and mode of delivery.
   Transportation.
   Other factors (weather conditions, terrain, sick leave usage, and carrier turnover).

One of the Postal Service’s core strengths is what is referred to as “the last mile” of mail
delivery — that is, its carrier delivery network reaches millions of business and
residential addresses 6 days every week. Carriers perform a variety of activities each
workday to support this delivery network. Each delivery facility’s mail volume, mail
arrival and dispatch times, and office and street route workhours vary daily.

                  Table 1: Postal Service Carrier Workforce as of October 2010
                                                         Rural            City
                                   Non-Career              51,918          13,652
                                     Career                67,233         189,496
                                      Total               119,151         203,148
                               Source: Web Complement Information System (webCOINS)


OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for improving mail distribution to carriers by
benchmarking with the commercial mailing industry. To accomplish our objective we:

   Reviewed Postal Service documentation including applicable policies, procedures,
    and contracts; and interviewed headquarters officials on issues related to the Postal
    Service’s use of router hours and mail preparation for carriers in city delivery
    operations.


7
 Title 39 U.S.C. §101 and 403.
8
 Title 39 U.S.C. The Postal Service is to provide a maximum degree of effective and regular postal services to rural
areas, communities, and small towns where post offices are not self-sustaining.

                                                          5
Benchmarking Mail Distribution to Carriers                                    EN-MA-11-001



   Visited the Greater Boston performance cluster in the Northeast area. We
    judgmentally selected the delivery units based on analysis of Postal Service
    locations using router hours. We interviewed management officials to determine the
    reasons for using router hours to prepare the mail for delivery.
         
   Benchmarked Postal Service delivery unit operations with FedEx and UPS. We
    interviewed managers, observed operations, and documented our observations.

We conducted this review from June 2010 through March 2011 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management officials on January 11, 2011, and included their
comments where appropriate.

We relied on data obtained from Postal Service database systems, the Enterprise Data
Warehouse (EDW), and webCOINS. We did not test controls over these systems;
however, we checked the reasonableness of results by confirming our analysis and
results with management and other data sources. We determined that the data were
sufficiently reliable for the purposes of this report.




                                             6
Benchmarking Mail Distribution to Carriers                                               EN-MA-11-001



                                    PRIOR AUDIT COVERAGE

                               Report           Final
        Report Title           Number        Report Date                    Report Results
   City Letter Carrier      DR-AR-06-004      3/31/2006    Morning Standard Operating Procedures
   Operations –                                            were introduced to delivery units in 2005
   National Capping                                        and are described as being focused on
   Report                                                  matching workhours to workload. In addition,
                                                           Managed Service Points, are described as a
                                                           program aimed at managing carrier
                                                           consistency in the field, but inadvertently
                                                           provide some information on carrier
                                                           overtime. We made no recommendations.
   Delivery and Retail      DR-MA-07-003      2/22/2007    All nine Postal Service areas had
   Standard Operating                                      implemented Delivery and Retail Standard
   Procedures –                                            Operating Procedures for city and rural
   National Capping                                        delivery and Function 4 operations.
   Report                                                  Managers were addressing challenges to
                                                           scores using the “vital few” concept –
                                                           facilities with hours above standard that
                                                           have the largest impact on national
                                                           performance. There was no monetary
                                                           impact for this report and management
                                                           agreed with recommendations to reiterate
                                                           standard operating procedures.
   U.S. Postal Service:     GAO 09-696         7/2009      The Postal Service has a variety of tools for
   Mail Delivery                                           monitoring delivery efficiency, including
   Efficiency Has                                          office and street hours. Differences in
   Improved, but                                           management and operations result in
   Additional Actions                                      varying degrees of efficiency throughout the
   Needed to Achieve                                       network and delivery efficiency has been
   Further Gains                                           improved, but lack of performance
                                                           information and implementation challenges
                                                           may limit future savings.
   U.S. Postal Service:     GAO-10-624T       4/15/2010    The Postal Service and Congress must
   Action Needed to                                        urgently address challenges to achieve
   Facilitate Financial                                    financial viability by restructuring retiree
   Viability                                               health benefit funding. In addition, there
                                                           must be a requirement that any binding
                                                           arbitration resulting from collective
                                                           bargaining would take the Postal Service’s
                                                           financial condition into account.
   City Delivery            DR-AR-11-001     11/22/2010    The Postal Service workforce planning
   Operations                                              process for city letter carriers did not always
   Workforce Planning                                      optimize available resources. In fiscal year
                                                           (FY) 2009, the Postal Service could have
                                                           avoided paying almost 7 million of the 28
                                                           million overtime hours for full-time city letter
                                                           carriers by maximizing available, lower cost
                                                           carrier resources to deliver the mail.
                                                           Management agreed in principle with the
                                                           recommendation, but disagreed with the
                                                           findings and monetary impact.


                                                 7
Benchmarking Mail Distribution to Carriers                                                              EN-MA-11-001



                                 APPENDIX B: DETAILED ANALYSIS

Workforce Flexibilities

The Postal Service may have opportunities to improve operations by adopting some
industry best practices for distributing mail to carriers. We noted commercial delivery
businesses have staffing flexibilities that allow managers to more efficiently match
workhours with workload and offset overtime by using more part-time employees (see
Table 1).

                             Table 2: Postal Service and Industry Contrast
                                         Workforce Flexibility

                                              Postal Service                     Benchmarked Entities
                                                                              Mail handlers sort volumes
                                                                               and start before drivers
                                      Clerks, mail handlers, and
                                                                               arrive on site.
                                       carriers transfer mailpieces
                                                                              Couriers/drivers pull
                                       to cases.
      Task Assignments                                                         volumes from conveyor
                                      Carriers case mail, transfer
                                                                               belts and load to vehicles.
                                       mail in hampers to vehicles,
                                                                              Mail handlers sort volumes
                                       and load vehicles.
                                                                               to conveyor belts and load
                                                                               vehicles.
                                                                             Crossing crafts (except
    Working Across Craft            Crossing-crafts is generally             driving) is encouraged as
       Assignments                  not permitted.9                          needed to meet departure
                                                                             times.
                                      Full-Time Carriers are
                                       guaranteed                             Couriers/drivers work 37 to
                                       8-hour days.                            40 hours a week.
           Workhours
                                      Most full-time mail                    Mail handlers work part-
                                       handlers/clerks are                     time, up to 20 hours a week.
                                       guaranteed 8-hour days.

Delivery Unit Assistants

Postal Service city delivery carriers have an office time allowance built into their 8-hour
day to case and prepare the mail for their route.10 In FY 2010, carriers spent
approximately 27 percent of their time in the office. Based on workload trends,
vacancies, absences, and mail volume, the carrier may perform these activities for other
routes. Some delivery units use carrier craft “routers” to case and prepare the mail for


9
  The Postal Service’s Corporate Complement Management Guidelines defines crossing crafts as, “The assignment
of an employee from one craft to work in a different craft because of insufficient work in the employee’s assignment or
a light workload period in one craft and a heavy workload period in another craft/occupational group; consistent with
the provisions of Article 7.”
10
   Handbook 38, Management of Delivery Services, states the carrier’s leave time is determined by workload;
availability of mail; necessary office time (time required to case mail, withdraw, tray or strap out mail, obtain parcel
post, and complete other required office duties); and business hours.

                                                           8
Benchmarking Mail Distribution to Carriers                                                                 EN-MA-11-001



delivery exclusively;11 routers may or may not perform street duties later in the day,
depending on need. Routers typically case and prepare the mail prior to the assigned
carrier’s arrival.

If the Postal Service adopted the use of part-time delivery unit assistants to perform
in-office work, these employees could absorb all carrier morning activities except
loading and driving the delivery vehicles.

Prior to leaving a carrier station, the key core daily function of Postal Service letter
carriers is manually sorting mail into the precise order in which it is delivered. Delivery
Point Sequencing (DPS) uses machines to automatically sort mail into the order in
which it is delivered by a letter carrier and eliminates the manual sorting process. In the
mid 1990’s, the Postal Service implemented high-speed automated equipment to
perform DPS for letter mail. Today, more than 87 percent of all letters are sequenced
using automated equipment. As a result of letter automation, the Postal Service avoids
costs of over $5 billion annually.

The Flats Sequencing System (FSS) is designed to perform the same automatic
sequencing function for flat-sized mail, which includes large envelopes, newspapers,
catalogs, circulars and magazines. The mail processed on the FSS will arrive at the
delivery unit in walk sequence order, ready for delivery by the carrier, without additional
mail movement or manual sorting required. The FSS Decision Analysis Report
proposed a decrease in several delivery unit employee categories (supervisors, manual
distribution clerks, carriers) as a result of the walk-sequenced flats. Annual savings
attributed to carrier office time was 15,440,195 workhours, which we deducted from our
workhour estimate to avoid duplication.

In addition, we recognize that carriers may need some office time to meet with
managers and retrieve scanners before starting their deliveries. We reduced our
workhour savings estimate by 10 percent of carrier office time to allow for necessary
delivery unit activities.

Factoring in these workhour savings, we determined that having part-time employees
case and prepare mail within delivery units could result in reduced labor costs between
approximately $621 million and $2.3 billion annually (see Tables 3 through 5 below),
along with greater flexibility. Savings would also be generated from carrier route
adjustments resulting from more street time and less office time for the carriers.
Although current contract stipulations limit the number of transitional and part-time
employees,12 this strategy should be considered as the Postal Service moves forward
with cost savings efforts in the future.




11
  Routers work at City Carrier 1 wage rate per hour.
12
  Current contract stipulations limit the use of transitional employees to 3.5 percent of city carriers. Additional
contract stipulations limit part-time positions to 12 percent of carriers in larger facilities.

                                                             9
Benchmarking Mail Distribution to Carriers                                                              EN-MA-11-001



                                 Table 3: Delivery Unit Assistant Concept

                                                                       City Carrier
                                                                                                 Savings
                                                                          Office
                                                                               13               Opportunity
                                                                         Time

                                              FY 2010 Actual             106,545,731

                                                      FSS
      Workhours                 Adjustments                              (15,440,195)
                                                     Savings


                                                 Office Activities        (9,110,554)


                                 Adjusted Workhours                      81,994,98214


                                              FY 2010 Actual          $5,736,610,084

                                              Adjusted Cost          $4,417,189,76515
         Salary
          and                 Adjusted at Transitional
        Benefits                                                      $2,121,210,195          $2,295,979,570
                                  Employee Rate
                                Adjusted at Part-time
                                      Flexible                        $3,796,367,685             $620,822,080
                                  Employee Rate




13
   Includes all regular, overtime and penalty overtime carrier in-office hours (Labor Distribution Code (LDC) 21 and
LDC 29).
14
   Adjusted workhours equate to 77 percent of the FY 2010 actual workhours.
15
   The Salary and Benefits Adjusted Cost is 77 percent of actual FY 2010 salary and benefits.

                                                               10
Benchmarking Mail Distribution to Carriers                                                      EN-MA-11-001




                              Table 4: Wage Rate by Employee Type
                                 Including salaries and benefits

                          Employee Category                    Wage Rate per Hour
                              Transitional                              $25.87
                           Part-time Flexible                           $46.30
                               Source: Workhour Rates FYs 2009 – 2011, Postal Service Finance




                                                       11
Benchmarking Mail Distribution to Carriers                                                     EN-MA-11-001




                              APPENDIX C: MONETARY IMPACTS

                    Finding                    Impact Category                    Amount

               Use of Part Time
                                          Funds Put to Better Use16            $518,517,299
                 Employees


We estimated a monetary impact of $518,517,299 in funds put to better use if part-time
employees are used to perform in-office work currently performed by carriers. This
amount is net of savings claimed by the Postal Service in the FSS DAR; an allowance
of 10 percent of daily workhours for necessary delivery unit activities (see Table 3
above).

In addition, we adjusted the claimed amount for savings already claimed by the OIG for
Carrier Overtime and Penalty Overtime.17 Table 5 below includes the reduction for the
workhours claimed in that report.

         Table 5: Savings After Deducting Workhours Recently Claimed by the OIG



                                             Workhours                Costs                Savings
                                                                                          Opportunity

     Adjusted Workhours and
                                             81,994,982         $4,417,189,765
        Costs from Table 3
      Less FY 2010 Overtime
       and Penalty Overtime                  12,658,497
      Identified in OIG report
     Net Workhours and Costs              69,336,48518         $3,728,796,55419
     Costs at the Transitional                                                          $1,935,061,688
                                                                $1,793,734,866
         Employee Rate
      Costs at the Part-time                                                             $518,517,299
                                                                $3,210,279,255
     Flexible Employee Rate


We used a conservative methodology in calculating potential monetary impact and
recognize not all costs or savings may be included in our projection. Savings generated
from using part-time/non-carrier employees to case and prepare the mail and resulting

16
   Funds that could be used more efficiently by implementing recommended actions.
17
   City Delivery Operations Workforce Planning report (Report Number DR-AR-11-009 dated November 22, 2010).
18
   Net workhours equate to 65 percent of the FY 2010 actual workhours of 106,545,731 shown in Table 3.
19
   Costs are 65 percent of the FY 2010 actual costs of $5,736,610,084 shown in Table 3.

                                                     12
Benchmarking Mail Distribution to Carriers                                    EN-MA-11-001



adjustments to carrier routes would need to offset additional costs that could be incurred
to implement this initiative. We were not able to determine the amount of any potential
offsetting costs during our review.




                                             13
Benchmarking Mail Distribution to Carriers                  EN-MA-11-001



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                             14
Benchmarking Mail Distribution to Carriers        EN-MA-11-001




                                             15
